   September 26, 2006




Acquisition
Ice Delivery Contracts Between
International American Products,
Worldwide Services and the U.S.
Army Corps of Engineers
(D-2006-116)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACI                   Advanced Contracting Initiatives
FAR                   Federal Acquisition Regulation
FEMA                  Federal Emergency Management Agency
GAO                   Government Accountability Office
IAP                   International American Products, Worldwide Services
IG                    Inspector General
RFP                   Request for Proposal
                Department of Defense Office of Inspector General
Report No. D-2006-116                                                  September 26, 2006
   (Project No. D2006-D000CG-0075.001)

          Ice Delivery Contracts Between International American
                   Products, Worldwide Services and the
                       U.S. Army Corps of Engineers

                                 Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers contracting
officials, emergency management personnel, and technical evaluation teams should read
this report. This report discusses the award process and the administration of the ice
delivery contracts used in emergency situations.

Background. Congressman Bennie G. Thompson requested the U.S. Army Corps of
Engineers Inspector General to review the contracts between International American
Products, Worldwide Services and the U.S. Army Corps of Engineers regarding the
procurement and delivery of ice in emergency situations. Due to lack of resources, the
U.S. Army Corps of Engineers Inspector General requested that the DoD Office of
Inspector General perform the review. Congressman Thompson requested a review of
five specific issues. The issues were a year-by-year breakdown of payments beginning in
1999; the Corps requests for proposal for the ice contracts beginning in 1995; details of
International American Products, Worldwide Services winning proposals since 1999;
proposals of other ice contract applicants during that time; and the Corps efforts to solicit
bids from the small or minority-owned business community.

This report will be followed by a second report addressing other issues identified in the
administration of the 2003 ice delivery contract that were not part of Congressman
Thompson’s original request. These reports are part of a series of reports that will be
issued by the DoD Office of Inspector General discussing the use of DoD resources in
response to Hurricane Katrina recovery efforts.

Results. We performed this review to respond to the congressional request to determine
whether the two contracts between International American Products, Worldwide Services
and the U.S. Army Corps of Engineers for the procurement and delivery of ice were
properly awarded and administered. The U.S. Army Corps of Engineers paid
approximately $153 million to the contractor for the purchase and delivery of ice from
September 22, 1999, through May 17, 2006. From 1995 through 1999, the U.S. Army
Corps of Engineers issued post-disaster awards for ice and related services. After
implementing Advanced Contracting Initiatives, the U.S. Army Corps of Engineers
issued a request for proposals for ice delivery during emergencies and awarded an ice
delivery contract to International American Products, Worldwide Services in
August 1999. In general, the U.S. Army Corps of Engineers properly planned, solicited,
and awarded to International American Products, Worldwide Services, and the Corps
appropriately evaluated all other proposals. The U.S. Army Corps of Engineers set aside
contracts for ice delivery to the small business community. See the Finding section for
additional information.

Management Comments. We provided a draft of this report on August 23, 2006. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                           ii
Table of Contents
Executive Summary                                                          i

Background                                                                 1

Objective                                                                  2

Finding
     Ice Delivery Contracts to International American Products,
         Worldwide Services                                                3

Other Matters of Interest                                                 10

Appendixes
     A. Scope and Methodology                                             12
     B. Prior Coverage                                                    14
     C. Congressional Request                                             15
     D. Government Cost Estimates and Contracted Rates for Ice Delivery
          Contract Line Items                                             17
     E. Report Distribution                                               20
Background
    This is the first of two reports discussing ice delivery contracts used for
    emergency situations. This report is in response to Congressman Bennie G.
    Thompson’s request (see Appendix C). The second report will address other
    issues identified during the review. Both reports are part of a series of planned
    DoD Inspector General (IG) audit reports that will discuss the use of DoD
    resources in response to the Hurricane Katrina recovery efforts.
    2004 National Response Plan. The 2004 National Response Plan is designed to
    provide structure for effective and efficient incident management among Federal,
    State, and local emergency management agencies. The National Response Plan
    includes 15 emergency support functions, which establish responsibilities from
    immediate disaster mitigation to long-term recovery from a disaster. The U.S.
    Army Corps of Engineers (the Corps) is primarily responsible for one of the
    15 functions, namely Emergency Support Function Number 3, “Public Works and
    Engineering.” Emergency Support Function Number 3 includes contracting for
    ice in emergency situations.

    The 2004 National Response Plan not only involves the Corps under DoD but
    also commits all Federal departments to cooperate with the Department of
    Homeland Security in emergency and disaster situations. The Department of
    Homeland Security is the primary Federal agency for responding to emergencies.
    Under Public Law 107-296, “Homeland Security Act of 2002,” the Department of
    Homeland Security is allowed to coordinate with personnel from other agencies to
    accomplish its mission with the President’s approval. The Federal Emergency
    Management Agency (FEMA), part of the Department of Homeland Security,
    coordinates the Federal response to emergencies and disasters through the use of
    mission assignments.

    Mission Assignments. The Department of Homeland Security and FEMA use
    mission assignments to support Federal operations during major disasters or
    emergency declarations when local and State governments are overwhelmed by
    the events. The 2004 National Response Plan authorizes the Department of
    Homeland Security and FEMA, through the National Response Coordination
    Center, to issue mission assignments. FEMA issued a national ice mission
    assignment to the Corps for $200 million to be used during the Hurricane Katrina
    recovery efforts.

    Advanced Contracting Initiatives and Issuance of Ice Contracts. To enable a
    quick response in emergencies and disasters, the Corps developed the Advanced
    Contracting Initiatives (ACI). In 1999, the Corps developed the ACI for ice,
    water, power, temporary roofing, and debris removal. Under the ACI,
    requirements contracts for emergency ice delivery are awarded pre-disaster and
    provide the Corps contracting personnel the ability to place delivery orders after a


                                         1
    disaster at the pre-negotiated rate. Prior to developing the ACI, the Corps
    procured ice after the emergency happened, delaying the response time and
    potentially adding additional costs. Using the ACI, the Corps awarded both the
    1999 and 2003 requirements contracts for ice delivery to International American
    Products, Worldwide Services (IAP).

    Requirements Contracts. Requirements contracts provide a method of filling
    actual needs of an agency by placing delivery orders against the contract.
    According to Federal Acquisition Regulation (FAR) 16.503, “Requirements
    Contracts,” specifications on requirements contracts are as follows:

       •    an estimate for goods or services should be included based on past usage
            or other available information;
       •    if feasible, the contract should state a maximum purchase requirement, a
            minimum and maximum amount for each delivery order, and a specified
            time period; and
       •    goods or services are not procured on the contract until a delivery order is
            placed.
Objective
    Our overall audit objective was to address a congressional request pertaining to
    the award and administration of the ice delivery contracts between IAP and the
    Corps. Specifically, we reviewed the year-by-year breakdown of payments to the
    contractor beginning in 1999, the Corps’ request for proposals (RFP) for the ice
    contracts since 1995, the IAP response to the requests, the proposals of other ice
    delivery contract applicants, and the Corps efforts to solicit proposals for the ice
    contracts from small or minority-owned businesses. See Appendix A for a
    discussion of the scope and methodology and Appendix B for prior coverage
    related to the objectives.




                                          2
            Ice Delivery Contracts to International
            American Products, Worldwide Services
            Generally, the Corps adequately awarded contracts in 1999 and 2003 to
            IAP for ice delivery contracts during emergencies from August 1999
            through January 2006. The total payments made on these contracts were
            approximately $153 million through May 17, 2006.

            •      The Corps paid more than $3 million on the 1999 contract and
                   almost $150 million on the 2003 contract through May 17, 2006.

            •      The Corps did not issue RFPs for emergency ice contracts from
                   1995 through April 1999. However, the Corps did issue
                   post-disaster awards for ice and related services during those years.
                   In April 1999, the Corps Charleston District advertised an ACI ice
                   delivery contract in the Commerce Business Daily and
                   65 companies requested a copy of the solicitation. For the 2003
                   contract, the Corps Galveston District advertised an ACI ice
                   delivery contract on www.fedbizopps.gov and 11 companies
                   requested the solicitation.

            •      The Corps received two responsive proposals on the
                   1999 solicitation, and IAP was the lowest offeror.

            •      The Corps received five requests for copies of the
                   2003 solicitation; however, IAP was the only responsive offeror.

            •      The Corps limited competition to small businesses and awarded
                   both the 1999 and 2003 ice delivery contracts as small business
                   set-aside contracts.

            Generally, the Corps contracting officials appropriately completed the pre-
            award process for ice delivery contracts by using acquisition planning,
            advertising solicitations, and implementing small business coordination
            procedures. The Corps contracting officials properly evaluated and rated
            submitted proposals based on Government cost estimates versus contractor
            price proposals, single-award decision criteria, and contractor technical
            proposals and awarded the two ACI ice delivery contracts to IAP.

Ice Delivery Contracts
     The Corps awarded two requirements contracts for ice as part of the ACI. The
     Corps Charleston District awarded the 1999 ice delivery contract
     DACW60-99-D-0002 on August 2, 1999, based on projected usage valued at the


                                         3
estimated amount of $333,368,713 that included 2 option years. The Corps
Galveston District awarded the 2003 ice delivery contract DACW64-03-D-0003
on November 21, 2002, with an estimated value of $109,484.97 including the
2 option years based on purchasing one unit of each contract line item. Both
requirements contracts were for packaged ice, transportation, and management of
the distribution system during emergencies. According to the Corps contracting
officer any contracting officer had authority to place delivery orders on these
contracts regardless of the location. The Corps placed delivery orders for ice on
these two requirements contracts when FEMA issued mission assignments.

1999 Ice Delivery Contract. The 1999 contract, including 2 option years, was in
effect from August 2, 1999, through July 31, 2002. The Corps Charleston District
estimated the contract value ranged from approximately $93 million to
$99 million per year based on procuring projected units for each contract line
item. The contract line items included the purchase, storage, and transportation of
ice within the continental United States, Alaska, Hawaii, the Virgin Islands,
Guam, and Puerto Rico, as well as the cost for partnering meetings between IAP
and the Corps. See Appendix D for additional information.

2003 Ice Delivery Contract. The 2003 contract, including 2 option years, was in
effect from February 1, 2003, through January 31, 2006. The Corps Galveston
District estimated the contract value ranged from approximately $62,000 to
$69,000 per year based on procuring a single unit for each contract line item.
According to the 2003 contract acquisition plan the total contract value over a
5-year period was estimated at $660 million. However based on comments from
the Corps Principal Assistant Responsible for Contracting, the Corps Galveston
District adjusted the acquisition to a 3-year period and adjusted the estimates to an
appropriate amount. The Corps Galveston District also changed the contract
requirements that were in the 1999 contract when developing the 2003 contract to
include line items for standby time, operation of refrigerated trucks at staging
areas, and planning assistance from IAP. The Corps Galveston District included
an additional requirement on the contract that ice be provided to other United
States territories at various prices. For the Hurricane Katrina recovery effort, the
Corps placed 29 delivery orders on the 2003 contract. See Appendix D for
additional information.

Single Award Decision. According to the Corps contracting officers they
decided to award a single contract rather than multiple contracts to provide the
emergency ice. The Corps emergency management personnel stated that making
multiple awards would have ultimately led to higher and more administrative
costs to the Government. The Corps Charleston District contracting officer stated
he issued a memorandum documenting this decision and that the memorandum
was part of the contract files. According to Corps contracting officials, during
disasters, subcontracting resources for the procurement of ice are limited. This
procurement includes production, transportation, and storage capabilities for the


                                      4
    ice at the staging areas. If multiple awards were made, contractors would
    compete with each other for the use of these subcontractors and ultimately end up
    incurring additional costs that would be priced into the proposals. A single award
    also eliminated contractors battling for docking space at the pick-up and drop-off
    points.

Congressional Issues and DoD IG Responses

    The Corps Inspector General received a congressional request to review the ice
    delivery contracts awarded to IAP. Due to resource constraints, the Corps
    requested the DoD IG to conduct a review and respond when completed.

    Congressman Bennie G. Thompson raised five issues; we address all five in this
    report. The issues were:

        •    a year-by-year breakdown of payments to IAP beginning in 1999,

        •    the Corps RFPs for the ice contract beginning in 1995,

        •    the IAP response to the requests,

        •    the proposals of other ice contract applicants, and

        •    the efforts by the Corps to solicit proposals for the ice contract from
             small or minority-owned businesses.

    The congressional request referred to a 2004 indefinite-delivery, indefinite-
    quantity contract awarded to IAP. We did not identify any 2004 indefinite-
    delivery, indefinite-quantity contracts for ice delivery during our audit. However,
    the Corps awarded requirements contracts for ice delivery to IAP in 1999 and
    2003. Under requirements contracts, the Government has no initial obligations.
    To procure goods or services, the Government places individual delivery orders
    on the contract. Under indefinite-delivery, indefinite-quantity contracts, the
    Government is required to procure a minimum amount of the items on the
    contract. After the Government purchases the minimum amount, it can procure
    the contracted items through other means.

    The five issues identified by Congressman Bennie G. Thompson are discussed as
    follows.

    Issue 1. A year-by-year breakdown of the Corps’ payments to IAP on the ice
    contract, beginning in 1999.

    DoD IG Response. The Corps Finance Center, Millington, Tennessee, paid
    invoices totaling approximately $153 million on the two ice delivery contracts


                                         5
awarded to IAP from September 22, 1999, through May 17, 2006. See Table 1
for a breakdown of payments by calendar year.


              Table 1. Payments to IAP on Ice Delivery Contracts

         Contract Number                 Year                              Total

     DACW60-99-D-0002                  1999                          $792,215.54
                                       2000                          1,395,522.25
                                       2001                            143,763.87
                                       2002                            496,966.94
                                       2003                            253,348.10
                                       2004                              2,217.72
                                      Subtotal                      $3,084,034.42

     DACW64-03-D-0003                    2003                       $2,345,147.81
                                         2004                       24,649,306.57
                                         2005                       66,572,985.11
                                2006 (through May 17)               55,969,283.85
                                       Subtotal                   $149,536,723.34

 Total                                                            $152,620,757.76




We reviewed payments made to IAP under the two ice delivery contracts as of
May 17, 2006. The Corps was still processing payments for all of the ice and
services procured during the Hurricane Katrina recovery efforts. Total payments
do not accurately reflect the Government’s total obligations to IAP because the
Corps Charleston District was still processing many of the delivery orders placed
for Hurricanes Katrina, Rita, and Wilma. The Corps did not make any payments
on delivery orders until it received and processed invoices from IAP.

Total payments include the procurement of ice, standby time, additional ground
mileage for transportation after the destination specified in the delivery order,
refrigerated unit operation at the staging areas, and administrative expenses.
Supplies and services purchased by the delivery orders were procured at the
agreed-upon price in the requirements contract. Ice delivered during the
Hurricane Katrina recovery effort was contracted at the option year 2 price of
$0.28 per pound plus a $0.01 per pound packaging fee. (See Appendix D for
pricing structure.)




                                     6
Issue 2. The Corps’ RFPs for the ice contracts, beginning in 1995.

DoD IG Response. Since 1995, the Corps has issued two RFPs, one in 1999 and
one in 2003, for turnkey contractors to provide packaged ice, shipping, and
storage during emergencies. Prior to implementing the ACI in 1999, the Corps
issued post-disaster awards for ice and related services. The Corps issued post-
disaster awards using blanket purchase agreements, indefinite-delivery contracts,
fixed-price contracts, purchase orders, and purchase card transactions. The Corps
did not use RFPs for the post-disaster awards due to time constraints. The Corps
provided us the following information from a data call for ice delivery contracts
from 1995 through 1999, before the Corps implemented the ACI:

   •   Corps Jacksonville District office procured at least 2 million pounds of ice
       in response to Hurricane Marilyn in 1995, but no longer maintained
       contract file data for review;

   •   Corps Wilmington District office awarded five contracts in response to
       Hurricane Fran in 1996 totaling about $1.3 million, but no longer
       maintained contract file data for review;

   •   the Corps procured no ice for emergencies in 1997; and

   •   Corps Charleston District office awarded 34 contracts totaling
       $11.8 million in response to Hurricane Georges in 1998. Of the
       34 contracts, only 1 solely involved the purchase of ice and transportation
       within the continental United States, similar to the 1999 and 2003
       contracts with IAP. The cost established by two purchase orders was
       $0.24 per pound. The other 33 contracts were for the purchase of
       undelivered ice, ice delivered outside the continental United States, or
       services related to the ice mission.

In April 1999, the Corps issued its first RFP for ice in support of FEMA under
the ACI.

Implementing the ACI in 1999 allowed the Corps to have contracts in place to
respond to emergency ice needs. The use of ACIs allowed Corps contracting
officials time to properly request, evaluate, and rate submitted proposals for the
1999 and 2003 ice delivery contracts based on Government cost estimates,
acquisition plans, and usage. The Corps issued delivery orders on these resulting
contracts after it received mission assignments from FEMA.

In its Government cost estimate, the Corps calculated the price of ice as $0.25 to
$0.33 per pound, which included inflation for each contract performance year.
Table 2 shows the Government’s estimated price for each contract performance
year.


                                     7
        Table 2. Government Cost Estimates for Packaged and Delivered Ice
                    Within the Continental United States

                                                                                Price Per
 Contract Number                    Period of Performance                        Pound

 DACW60-99-D-0002     August 2, 1999, through July 31, 2000        (base yr.)    $0.25
                      August 1, 2000, through July 31, 2001        (option 1)     0.26
                      August 1, 2001, through July 31, 2002        (option 2)     0.27

 DACW64-03-D-0003     February 1, 2003, through January 31, 2004   (base yr.)      0.30
                      February 1, 2004, through January 31, 2005   (option 1)      0.32
                      February 1, 2005, through January 31, 2006   (option 2)      0.33


1999 Acquisition Plan. The Corps Charleston District contracting officer did not
prepare an acquisition plan prior to awarding the 1999 contract. Engineer Federal
Acquisition Regulation Supplement Part 7, “Acquisition Planning,” requires an
acquisition plan for procurements of $15 million or more in any given year or
more than $30 million over the life of the contract. The Government originally
estimated the value of the contract at $20 million over the life of the contract, as
stated in the small business coordination documentation. Subsequently, the
Government cost estimate placed the contract’s value with options at more than
$287 million. The Corps Charleston District contracting officials included
projected usage estimates during the award of the 1999 contract. The Corps
Charleston District contracting officer decided that he would not prepare a formal
written acquisition plan because the solicitation was in its final stages.

2003 Acquisition Plan. The Corps Galveston District contracting officer
prepared an acquisition plan prior to the award of the 2003 contract. According to
the 2003 acquisition plan, the ice delivery contract was estimated at $660 million
over a 5-year period. For developing the Government’s cost estimate, the Corps
Galveston District contracting officials used one unit of each line item to calculate
the contract value for the base year and options years ($62,000 to $69,000),
which were below the dollar thresholds outlined in the regulation that requires an
acquisition plan. This calculation significantly skewed the value of the contract to
less than the threshold requiring acquisition plans. However, an acquisition plan
was included in the 2003 contract documents.

RFP Advertisement. The Corps contracting officials advertised the RFP for both
the 1999 and 2003 ice delivery contracts through the appropriate Government-
wide point of entry, and with sufficient time for potential offerors to submit
proposals. FAR Part 4, “Administrative Matters,” requires one Government-wide
point of entry for public access to all Federal procurement opportunities for more
than $25,000. Prior to January 1, 2002, the Commerce Business Daily was the


                                       8
point of entry. The current point of entry is on the Internet at
www.fedbizopps.gov. The Corps Charleston District advertised the 1999 RFP
through the Commerce Business Daily and allowed 73 days to respond. The
Corps Galveston District advertised the 2003 RFP on www.fedbizopps.gov as
well as on the Corps Galveston District Web site and allowed 68 days to respond.

Qualification Factors. According to the solicitation, offerors had to respond
with information on qualification factors for consideration. The Corps required
offerors to be small businesses based on requirements specified in the solicitation.
Offerors were to indicate specialized experience, technical competence,
experience with contracts of similar size and scope, and whether the offeror had
the capability to simultaneously respond to multiple disasters. Offerors also were
required to indicate all key personnel and subcontractors proposed to work on the
contract. The Corps used the contractor’s 5-year past performance history as an
evaluation factor.

Issue 3. The IAP response, detailing its winning proposals since 1999.

DoD IG Response. The Corps Technical Evaluation teams determined the IAP
proposals were technically sufficient and were in line with Government cost
estimates. IAP submitted timely and responsive proposals to the Corps for both
the 1999 and 2003 RFPs. IAP was the lowest bidder for the 1999 ice delivery
contract and was the only bidder for the 2003 ice delivery contract.

IAP proposed slight increases to the price of ice each year with the exception of a
decrease between the end of the 1999 contract and beginning of the 2003 contract.
Table 3 shows the IAP proposed price per pound for ice on the two contracts
including the option years.


             Table 3. IAP Proposed Cost for Packaged and Delivered Ice
                        Within the Continental United States
                                                                                                      Price Per
   Contract Number                              Period of Performance                                  Pound

 DACW60-99-D-0002             August 2, 1999, through July 31, 2000                 (base yr.)          $0.25
                              August 1, 2000, through July 31, 2001                 (option 1)           0.26
                              August 1, 2001, through July 31, 2002                 (option 2)           0.28

 DACW64-03-D-0003*            February 1, 2003, through January 31, 2004            (base yr.)           0.27
                              February 1, 2004, through January 31, 2005            (option 1)             0.28
                              February 1, 2005, through January 31, 2006            (option 2)             0.29
 *Contract DACW64-03-D-0003 had separate line items for ice and packaging. We combined these two line items for
 comparison purposes.


The Corps contracting officer accepted the IAP proposed rate for each year of
contract performance for packaged ice delivered within the continental U.S. The


                                                  9
     contract required IAP to deliver orders for up to 500,000 pounds of ice within
     24 hours and orders for amounts greater than 500,000 pounds within 48 to
     72 hours. IAP was required to provide up to a maximum of 15 million pounds of
     ice in a 30-day period. IAP had the option to decline delivery orders that
     exceeded the maximum amount. Costs associated with ice requirements for areas
     other than the continental United States were based on shipping method.

     Issue 4. The proposals of other ice contract applicants during this time.
     DoD IG Response. The Corps Charleston District contracting personnel received
     three proposals, including the one from IAP, for the 1999 RFP: two were
     responsive, and one was not considered because it was received late. IAP
     submitted the winning proposal. The other responsive bid proposed a higher cost
     than the IAP proposal and the Government cost estimate.

     The Corps Galveston District received only the IAP proposal in response to the
     2003 RFP, and the proposal was below the Government cost estimate.

     Issue 5. The efforts of the U.S. Army Corps of Engineers to solicit proposals
     from the small or minority-owned business community.

     DoD IG Response. The Corps Charleston and Galveston Districts contracting
     officials issued RFPs specifically set aside for small businesses and believed
     adequate competition could be obtained while restricting full and open
     competition. The Small Business Administration concurred with these
     assessments. The Corps advertised and awarded both the 1999 and 2003 ice
     delivery contracts to IAP, part of the small business community. IAP was a
     veteran-owned small business at the time of both awards. Sixty-five small
     businesses requested a copy of the 1999 RFP and 11 small businesses requested
     the 2003 RFP.

Other Matters of Interest

     Expired Contract. The final option year on the 2003 ice delivery contract
     expired on January 31, 2006. The Corps Galveston District contracting officials
     issued an advanced notice synopsis on February 3, 2006, for a short-term ice
     delivery contract (3 to 9 months). After revising the solicitation, the Corps
     awarded the ice delivery contract to both IAP and another contractor for a period
     of performance of May 5, 2006, through September 30, 2006. According to the
     Corps Galveston District emergency management personnel, the revisions to the
     short-term solicitation will require all trucks to have a Global Positioning System
     onboard and increase the maximum ordering on the contract from 500,000 to
     20 million pounds of ice every 24 hours.




                                          10
The Corps has not issued another long-term ACI contract. The Corps has
approved an acquisition plan for the Corps National Ice contract. The Corps and
the Small Business Administration have decided that adequate competition could
not be obtained with a small business set-aside contract, therefore the solicitation
will be for full and open competition. The Corps will request the Defense
Contract Audit Agency to assist in the review of Independent Government
Estimates as well as assist with proposal evaluations and price negotiations for the
future ice delivery contract. Until the Government issues another ice delivery
contract, the Government risks paying a premium for ice when a national incident
occurs.

Additional Costs and Delays With the Ice Delivery. Based on discussions with
emergency personnel and contracting officials, we were informed of potential
problems related to FEMA taskings, excessive standby times, access to disaster
areas, waste of funds from redirecting ice delivery trucks, and errors in the IAP
invoices processed by the Corps personnel. Our second report will discuss these
areas of concern on the 2003 ice delivery contract. These problems may have
delayed the delivery of the ice and raised the cost to the Government during the
Hurricane Katrina recovery efforts.




                                    11
Appendix A. Scope and Methodology
   We conducted this audit at the request of Congressman Bennie G. Thompson to
   review the award of ice delivery contracts during emergencies. We met with the
   Corps Principal Assistant Responsible for Contracting to discuss the overall
   contract award and administration process for emergency ice procurement.

   We reviewed FAR Part 4, “Administrative Matters”; FAR 15.203, “Request for
   Proposals”; FAR 16.503, “Requirements Contracts”; Engineer Federal
   Acquisition Regulation Supplement Part 7, “Acquisition Planning”; the
   “2004 National Response Plan Emergency Support Function #3-Public Works
   and Engineering”; and documentation pertaining to Hurricane Katrina recovery
   efforts.

   We reviewed contract DACW60-99-D-0002 dated August 2, 1999, with an
   estimated value including two option years at approximately $333 million and
   contract DACW64-03-D-0003 dated November 21, 2002, with an estimated value
   including two option years at approximately $109,000 to determine whether the
   Corps properly awarded and administered the ice delivery contracts, and properly
   solicited small or minority-owned businesses.

   We obtained and reviewed the acquisition plans, RFPs, source selection and
   evaluation documentation, Government cost estimates, proposals from other
   contractors, and paid invoices on the two IAP ice contracts dated from
   September 22, 1999, through May 17, 2006.

   We interviewed personnel from six Corps office locations (Corps Headquarters,
   District of Columbia; Charleston District, South Carolina; Galveston District,
   Texas; Jacksonville District, Florida; Savannah District, Georgia; and the Corps
   Finance Center, Millington, Tennessee) to determine their involvement and
   understanding of the ice mission. Contacts included contracting, emergency
   management, internal review, legal, and finance personnel. We obtained
   information on the processes used to implement FEMA taskings and the
   reconciliation process used to pay invoices from IAP.

   We performed this audit from November 2005 through August 2006 in
   accordance with generally accepted government auditing standards.

   For this report, the audit scope was limited to the congressional request. We did
   not review the Corps contracts issued from 1995 through the implementation of
   the ACI in 1999. We relied on information provided directly from Corps
   personnel because many of the contract documents were no longer available for
   us to review.




                                       12
Use of Computer-Processed Data. We used the Corps Financial Management
System database to determine a year-by-year breakdown of the Corps payments to
IAP on the ice delivery contracts, beginning in 1999. We found no discrepancies
when comparing the invoices to the Corps Financial Management System
database.

Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the DoD Contract Management high-risk area.




                                   13
Appendix B. Prior Coverage
      During the past 5 years, GAO has published one report and two testimonies, the
      DoD IG has issued one report, the Army Audit Agency has published one report,
      and the Naval Audit Service has issued one report relating to the contracts for
      Hurricane Katrina recovery efforts. Unrestricted GAO reports and testimonies
      can be accessed at http://www.gao.gov. Unrestricted DoD IG reports can be
      accessed at http://www.dodig.mil/audit/reports. Unrestricted Army Audit
      Agency Reports can be obtained by contacting the Audit Coordination and
      Follow-Up Office at (703) 681-9863. Unrestricted Naval Audit Service reports
      can be accessed at http://www.hq.navy.mil/NavalAudit.


GAO
      GAO Report No. GAO-06-834, “Government-Wide Framework Needed to
      Collect and Consolidate Information to Report on Billions in Federal Funding for
      the 2005 Gulf Coast Hurricanes,” September 6, 2006

      GAO Testimony No. GAO-06-714T, “Improving Federal Contracting Practices in
      Disaster Recovery Operations,” May 4, 2006

      GAO Testimony No. GAO-06-622T, “Planning for and Management of Federal
      Disaster Recovery Contracts,” April 10, 2006

DoD IG
      DoD IG Report No. D-2006-109, “Response to Congressional Requests on the
      Water Delivery Contract Between the Lipsey Mountain Spring Water Company
      and the United States Army Corps of Engineers,” August 29, 2006

Army Audit Agency
      Army Audit Agency Report No. A-2006-0198-FFD, “Contracts for the Hurricane
      Protection System in New Orleans,” August 22, 2006

Naval Audit Service
      Naval Audit Service Report No. N2006-0015, “Chartered Cruise Ships,”
      February 16, 2006




                                         14
Appendix C. Congressional Request




                     15
16
Appendix D. Government Cost Estimates and
            Contracted Rates for Ice Delivery
            Contract Line Items
         The 1999 ice delivery contract, including 2 option years, was in effect from
         August 2, 1999, through July 31, 2002, with an estimated value at approximately
         $333 million based on projected usage. The Corps Charleston District calculated
         the Government cost estimate for the contract to range from approximately
         $93 million to $99 million per year. The contract line items included the
         purchase, storage, and transportation of ice within the continental United States,
         Alaska, Hawaii, the U.S. Virgin Islands, Guam, and Puerto Rico. Projected usage
         was the same for each contract year and included 45,000,000 pounds of ice;
         6,000 additional ground miles; 45 days of storage for up to 500,000 pounds of ice;
         and 2 partnering days per contract year. Partnering meetings were not included in
         the Government cost estimate. See Table D-1 for details on the 1999 contract line
         items.

         The 2003 ice delivery contract, including 2 option years, was in effect from
         February 1, 2003, through January 31, 2006, with an estimated value at
         approximately $109,000 * based on procuring a single unit of each contract line
         item. The Government estimated the 2003 ice delivery contract value would
         range from $62,000 to $69,000 per contract year. See Table D-2 for details on the
         2003 contract line items.

         Specifically for the Hurricane Katrina recovery efforts, the Corps placed delivery
         orders on the contract using option year 2 contract line items with a total
         not-to-exceed value of $103 million. Because the Corps issued delivery orders
         with not-to-exceed amounts, the Corps would pay only for the work performed by
         IAP as needed for the Hurricane Katrina recovery efforts. Therefore, the Corps
         may pay less than the amount in Table D-3, but was obligated to pay up to this
         amount if IAP provided the goods or services.




*
 The 2003 contract had no projected totals; therefore, the price of each contract line item was added to
determine the total estimated contract value.


                                                     17
                                                                                  Table D-1. 1999 Contract and Option Years
                                                                                                       Base Year                        Option Year 1                      Option Year 2
                                                                                         Government Cost                      Government Cost                    Government Cost
Price Per Unit                                                                               Estimate        Contracted Rate     Estimate       Contracted Rate     Estimate       Contracted Rate
Packaged Ice Delivered Within the Continental United States (pound)                                  $0.25              $0.25            $0.26             $0.26            $0.27             $0.28
Additional Ground Mileage (mile)                                                                     $2.00              $2.42            $2.06             $2.54            $2.12             $2.67
Partnering Meetings (day)                                                                    Not applicable           $295.00    Not applicable          $300.00    Not applicable          $315.00
Storage (up to 500,000 pounds per day)                                                           $3,000.00          $5,192.00        $3,090.00         $5,451.00        $3,183.00         $5,723.00

Projected Units x Price Per Unit (Used to project a portion of the estimated contract value)
Packaged Ice Delivered Within the Continental United States (pound)                       $11,250,000.00     $11,250,000.00    $11,700,000.00    $11,700,000.00    $12,150,000.00    $12,600,000.00
Additional Ground Mileage (mile)                                                               $12,000.00        $14,520.00        $12,360.00        $15,240.00        $12,720.00        $16,020.00
Partnering Meetings (day)                                                                   Not applicable             $590     Not applicable             $600     Not applicable             $630
Storage (up to 500,000 pounds per day)                                                           $135,000         $233,640           $139,050         $245,295       $143,235.00           $257,535
Total for Continental United States                                                       $11,397,000.00     $11,498,750.00    $11,851,410.00    $11,961,135.00    $12,305,955.00    $12,874,185.00
Totals for These Same Goods and Services for Alaska, Hawaii, Guam, Puerto Rico, and
the U.S. Virgin Islands                                                                    $81,165,600.00     $94,230,156.00   $83,872,968.00     $98,892,947.00    $86,751,466.00   $103,911,540.00
Yearly Estimated Total                                                                     $92,562,600.00    $105,728,906.00   $95,724,378.00    $110,854,082.00    $99,057,421.00   $116,785,725.00
Base and Options Estimated Total                                                                                                                                   $287,344,399.00   $333,368,713.00

                                                                                  Table D-2. 2003 Contract and Option Years
                                                                                                      Base Year                        Option Year 1                      Option Year 2
                                                                                         Government Cost                     Government Cost                    Government Cost
                                                                                             Estimate       Contracted Rate     Estimate       Contracted Rate     Estimate       Contracted Rate
Packaged Ice Delivered Within the Continental United States (pound)                                  $0.38             $0.27            $0.40             $0.28            $0.41             $0.29
Additional Ground Mileage (mile)                                                                     $2.75             $2.45            $2.89             $2.52            $3.00             $2.60
Partnering Activities (day)                                                                        $400.00           $325.00          $420.00           $335.00          $440.00           $345.00
Strategic Planning Services (day)                                                                  $400.00           $325.00          $420.00           $335.00          $440.00           $345.00
On-Site Contractor Operations Manager (day)                                                        $300.00           $350.00          $315.00           $361.00          $330.00           $372.00
Standby Time (hour)                                                                                $100.00            $50.00          $105.00            $52.00          $110.00            $54.00
Daily Operation of 1st Reefer (day)                                                                $800.00           $380.00          $840.00           $391.00          $880.00           $403.00
Daily Operation of Additional Reefer (day)                                                         $116.00            $50.00          $121.80            $52.00          $125.00            $54.00
Mobile Storage Units (day)                                                                         $420.00           $380.00          $441.00           $391.00          $460.00           $403.00
Additional Services (Unloading, Drayage, Disposal)                                               $2,805.00         $1,535.00        $2,945.25         $1,580.50        $3,058.50         $1,627.00
Total for Continental United States                                                              $5,344.13         $3,397.72        $5,611.34         $3,500.30        $5,846.91         $3,605.89
Total for These Same Services in Alaska, Hawaii, Puerto Rico, U.S. Virgin Islands,
Guam, Northern Marianas Islands, American Samoa, Federated States of Micronesia, and
                                                                                               $56,640.54        $32,019.51        $59,472.56        $32,988.67        $62,427.99        $33,972.88
the Republic of the Marshall Islands. (In some cases, the rate was negotiated as the need
occurred. These items did not increase the estimated contract value.)
Yearly Estimated Total                                                                         $61,984.67        $35,417.23        $65,083.90        $36,488.97        $68,274.90        $37,578.77
Base and Options Estimated Total                                                                                                                                      $195,343.47       $109,484.97

                                           18
           Table D-3. Obligations for Hurricane Katrina Recovery Efforts


                                                     2003 Contract        Not-to-
                                                     Option Year 2    exceed total     Not-to-exceed
                                                     Price Per Unit       (Units)            total ($)
Packaged Ice Delivered Within the Continental
United States (pound)                                        $0.29    171,240,000     $49,659,600.00
Additional Ground Mileage (mile)                             $2.60      3,743,639      $9,733,461.40
Strategic Planning Services (day)                          $345.00             52         $17,940.00
On-Site Contractor Operations Manager (day)                $372.00             52         $19,344.00
Standby Time (hour)                                         $54.00        775,528     $41,878,512.00
Daily Operation of First Reefer (day)                      $403.00            285        $144,855.00
Daily Operation of Additional Reefer (day)                  $54.00         37,452      $2,022,408.00
 Total                                                                               $103,476,120.40




                                                19
Appendix E. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army
Chief of Engineers, United States Army Corps of Engineers

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office




                                          20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Committee on Homeland Security




                                        21
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Culp
Bobbie Sau Wan
Gary B. Dutton
Jeffrey L. Steinbauer
Rachel L. Feldner
Jonathan M. Kistler
Meredith H. Johnson
Jillissa H. Milner
